<html>
<title> - [H.A.S.C. No. 113-72] MARITIME SOVEREIGNTY IN THE EAST AND SOUTH CHINA SEAS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-72] 
                      MARITIME SOVEREIGNTY IN THE 
                       EAST AND SOUTH CHINA SEAS

                               __________

                             JOINT HEARING

                               before the

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 of the

                      COMMITTEE ON FOREIGN AFFAIRS

                          [Serial No. 113-137]

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 14, 2014


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-962                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f485f406f4c5a5c5b474a435f014c404201">[email&#160;protected]</a>  
                                     
                      COMMITTEE ON ARMED SERVICES
             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
                Douglas Bush, Professional Staff Member
                         Nicholas Rodman, Clerk

                                 ------                                

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, January 14, 2014, Maritime Sovereignty in the East and 
  South China Seas...............................................     1

Appendix:

Tuesday, January 14, 2014........................................    33
                              ----------                              

                       TUESDAY, JANUARY 14, 2014
         MARITIME SOVEREIGNTY IN THE EAST AND SOUTH CHINA SEAS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bera, Hon. Ami, a Representative from California, Acting Ranking 
  Member, Subcommittee on Asia and the Pacific...................     6
Chabot, Hon. Steve, a Representative from Ohio, Chairman, 
  Subcommittee on Asia and the Pacific...........................     1
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     3
Johnson, Hon. Henry C. ``Hank,'' Jr., a Representative from 
  Georgia, Subcommittee on Seapower and Projection Forces........     9
McIntyre, Hon. Mike, a Representative from North Carolina, 
  Ranking Member, Subcommittee on Seapower and Projection Forces.     4
Rohrabacher, Hon. Dana, a Representative from California, 
  Subcommittee on Asia and the Pacific...........................     7
Salmon, Hon. Matt, a Representative from Arizona, Subcommittee on 
  Asia and the Pacific...........................................     8
Sherman, Hon. Brad, a Representative from California, 
  Subcommittee on Asia and the Pacific...........................     7

                               WITNESSES

Dutton, Peter A., Strategic Researcher, China Maritime Studies 
  Institute, U.S. Naval War College..............................    10
Glaser, Bonnie S., Senior Advisor for Asia, Freeman Chair in 
  China Studies and Senior Associate, Pacific Forum, Center for 
  Strategic and International Studies............................    12
Smith, Jeff M., Director of South Asia Programs, Kraemer Strategy 
  Fellow, American Foreign Policy Council........................    14

                                APPENDIX

Prepared Statements:

    Chabot, Hon. Steve...........................................    37
    Connolly, Hon. Gerald E., a Representative from Virginia, 
      Subcommittee on Asia and the Pacific.......................    42
    Dutton, Peter A..............................................    44
    Forbes, Hon. J. Randy........................................    40
    Glaser, Bonnie S.............................................    56
    Smith, Jeff M................................................    70

Documents Submitted for the Record:

    Statement of Hon. Ami Bera, ``Setting and Enforcing 
      International Norms for Airspace,'' December 19, 2013......    87

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    91
         MARITIME SOVEREIGNTY IN THE EAST AND SOUTH CHINA SEAS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Seapower and 
            Projection Forces, Meeting Jointly with 
            Committee on Foreign Affairs, Subcommittee on 
            Asia and the Pacific, Washington, DC, Tuesday, 
            January 14, 2014.

    The subcommittees met, pursuant to call, at 2:24 p.m., in 
room 2118, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the Subcommittee on Asia and the Pacific) 
presiding.

 OPENING STATEMENT OF HON. STEVE CHABOT, A REPRESENTATIVE FROM 
      OHIO, CHAIRMAN, SUBCOMMITTEE ON ASIA AND THE PACIFIC

    Mr. Chabot. Good afternoon and welcome to this joint 
subcommittee hearing of the Foreign Affairs Subcommittee on 
Asia and the Pacific and the Armed Service Subcommittee on 
Seapower and Projection Forces. I want to thank Chairman Forbes 
for joining us this afternoon and collaborating with the Asia 
Pacific Subcommittee on the critically important topic of 
today's hearing, which is the issue of maritime security in the 
South and East China Seas. I also want to thank Mr. Ami Bera 
for serving as the Acting Ranking Member for Asia and Pacific 
Subcommittee and Ranking Member McIntyre for also joining us 
this afternoon. We look forward to an excellent hearing.
    Today's hearing could not come at a more critical time, as 
we have seen over the last few months a growing level of 
tension in the Asia-Pacific region as a result of unilateral 
actions taken by China to exert its control over disputed 
maritime territories. We are witnessing a dangerously 
aggressive China trying to assert greater control over these 
territories to change the regional status quo in a way that 
violates core principles of international law. The implications 
of these actions for the United States are substantial since we 
have strategic and economic interests that are increasingly 
threatened by the growing tension and confrontational incidents 
in these waters.
    An American presence in Asia is built on maintaining peace 
and stability that is upheld through respect for international 
law, freedom of navigation, and unhindered, lawful commerce in 
the maritime regions. This is pursued through our alliances 
with Japan, South Korea, Australia, Thailand and the 
Philippines, in addition to our steadfast relationships with 
Taiwan and Singapore, and evolving relationships with Vietnam 
and Indonesia.
    In recognition of the region's growing importance, the U.S. 
policy rebalance toward Asia largely served as an 
acknowledgment of our long-term goal of ensuring we remain 
firmly engaged in this region. This so-called ``pivot'' came at 
a crucial time, no doubt long overdue, because our regional 
friends and allies needed assurance of sustained U.S. 
commitment. While I may take issue with the lack of depth of 
the Administration's rebalance strategy, one thing is certain, 
we do have a grounded diplomatic, economic, and military 
commitment to the region.
    There is no other issue right now in the Asia-Pacific 
region more worrisome than the rise in tensions we are seeing 
as a result of China's efforts to coercively change and 
destabilize the regional status quo. While I am disappointed by 
China's behavior, I am also not terribly surprised that it is 
failing to behave as a responsible global actor. Among the most 
prevalent reasons why China is motivated to fight for its 
claims, which include oil and gas reserves, fishing rights, 
control of fishing lanes, and establishment of security buffer 
zones, its view that its maritime territorial claims have deep 
historical roots is the most problematic.
    There are a number of instances in history where 
nationalism was used to further international political goals 
with damaging consequences. Take, for instance, the incident 
when back in 1983 Soviet jet fighters intercepted a Korean 
Airlines passenger flight allegedly flying in Russian airspace 
and with heat-seeking missiles, shot it down in the Sea of 
Japan, killing all 268 passengers and crewmembers, including a 
U.S. Congressman. President Reagan called the incident a 
massacre and tensions between the U.S. and Soviet Union 
dramatically increased.
    Similar motivations were behind the April 2001 Hainan 
Island incident when a People's Liberation Army Navy jet 
recklessly or intentionally collided with the U.S. EP-3 
aircraft flying within China's exclusive economic zone. And now 
China's unilateral decision to establish an Air Defense 
Identification Zone in the East China Sea is its latest move to 
act upon historically contentious maritime territorial disputes 
with Japan. This move was further intensified this month when 
China established a new Hainan administrative zone and ordered 
all foreign fishing vessels to obtain approval before fishing 
in or surveying two-thirds of the South China Sea. Both these 
actions have only further inflamed what former Australian Prime 
Minister Kevin Rudd called an Asian ``tinderbox on water.''
    While China's actions over the past few years, in 
piecemeal, may seem small, as a whole they depict a fundamental 
change in China's foreign policy and strategy. It is no longer 
following the policy of peaceful resolution or taking actions 
that align with international law, if it ever did in the first 
place. China's attempting to take the disputed territories by 
gradual force under the guise and misguided hope that Japan, 
Southeast Asian nations, and the U.S. will just grudgingly 
accept it. This ``provocative'' behavior, as the Obama 
administration has called it, unnecessarily raises tensions, 
threatening the security and stability of the region, targeting 
key U.S. allies and challenging the U.S. presence as a Pacific 
power.
    As we have seen, players in the region are responding. 
Japan is taking steps to reshape its own national security 
apparatus to better respond to the rise of Chinese threats, a 
policy I support. The Philippines has also been vocal about its 
disagreements with China's territorial claims, requesting 
arbitration against China under the U.N. [United Nations] 
Convention on the Law of the Sea last year. Reports this 
weekend indicate the Philippines is building its military 
presence in the Zhongye Island and China is now insisting that 
it plans to attack Philippine forces on the island to recover 
territory that Philippines allegedly ``stole.''
    This all follows the Administration's decision to send B-52 
bombers out of Guam to fly through the new defense zone in the 
East China Sea, and its plans to give nearly $32 million to 
Vietnam to strengthen maritime security, with a promise to 
provide the Philippines with $40 million to do the same. While 
these actions should send a strong message to China to be wary 
of taking further provocative actions, we cannot be sure. As we 
saw when the USS Cowpens narrowly avoided collision with a 
Chinese warship in December, heightened tensions between the 
U.S., China and also our allies are only increasing the risk of 
miscalculation in the region.
    I believe steps taken by the U.S. and Japan to revise our 
alliance's bilateral defense guidelines to better deal with new 
contingencies is a good step, as is the consideration to locate 
U.S. troops in the Philippines on a rotational basis, as we 
have done in Australia. At the same time, I believe the 
Administration needs to do a better job at understanding and 
predicting China's strategic goals and clearly conveying that 
the U.S. is committed and prepared to work with and support our 
regional allies.
    I look forward to hearing from our witnesses this afternoon 
regarding their views on how the U.S. can better manage 
obligations to our friends and allies to limit conflict with 
China in the coming months. I want to again thank Chairman 
Forbes and his subcommittee for collaborating on today's 
hearing, and I would now like to recognize Chairman Forbes for 
the purpose of making an opening statement.
    [The prepared statement of Mr. Chabot can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
  VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Forbes. Thank you. And I would like to thank Chairman 
Chabot for offering to work with our subcommittee on this 
important topic.
    There are many areas of interest that overlap between our 
two subcommittees and create natural areas for cooperation, and 
I hope this joint hearing will be the first of many to come in 
the future.
    With the continued escalation of tensions in the East and 
South China Seas, or what China calls its Near Seas, I think it 
is essential for Congress to closely monitor this issue and 
affirmatively state our reservations with its present course.
    My greatest fear is that China's coercive methods of 
dealing with territorial disputes could manifest into increased 
tensions that could ultimately lead to miscalculation.
    This heightened use of coercive actions by Chinese naval 
vessels now spans the East and South China Seas from Japan's 
Senkaku Islands, the Scarborough Shoals, the Spratly Islands 
and, indeed, the entire South China Sea.
    It is difficult for me to understand why China is pursuing 
the more aggressive actions it has over the past years given 
how much it has benefited from the rules-based order the U.S. 
and its allies have sustained in the Asia-Pacific region for 
the last 65 years.
    This order has made the region more prosperous, more 
transparent and, above all, more peaceful. However, it is clear 
that as China has expanded its military forces and 
capabilities, their government has chosen a more strident path 
in the pursuit of its regional goals and ambitions, including 
the territorial claims we are here to discuss today.
    I believe we must be 100 percent intolerant of China's 
territorial claims and its continued resort to forms of 
military coercion to alter the status quo in the region.
    This requires not just maintaining a robust military and 
strong diplomatic posture, but also working closely with our 
friends and allies to understand their concerns and find ways 
to strengthen our common cause to preserve free access to the 
global commons.
    As Congress shifts its attention more closely to the Asia-
Pacific region, I am pleased to see bipartisan support for our 
Nation continuing to play a strong leadership role in the 
region.
    Before I conclude, I also want to recognize Mr. Mike 
McIntyre for his dedicated support to the men and women in 
uniform, the 7th District of North Carolina, and to the greater 
United States.
    Mike, you have been a good friend and a consummate 
statesman, and our Nation will be at a loss when you depart the 
House of Representatives at the conclusion of this session. I 
will clearly miss your friendship and your expertise.
    Today I also want to thank our experts for being here. We 
look forward to your testimony, and we greatly appreciate you 
taking time to be here to share your knowledge and expertise 
with our two committees.
    Again, I want to thank Chairman Chabot for holding this 
joint hearing, and I yield back the balance of my time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 40.]
    Mr. Chabot. I thank the gentleman.
    I would now like to turn to the Ranking Member from North 
Carolina, Mr. McIntyre, for the purpose of making an opening 
statement.

 STATEMENT OF HON. MIKE MCINTYRE, A REPRESENTATIVE FROM NORTH 
    CAROLINA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. McIntyre. Thank you, Mr. Chairman.
    Thanks to our witnesses today and to those who are here.
    And thank you to my subcommittee chairman and my good 
friend, Randy Forbes, for your very kind words--and unexpected 
at this time; thank you, that really means a lot personally and 
professionally. And thank you for your leadership.
    The Chinese government's recent behavior regarding maritime 
and airspace boundaries is of growing concern to the U.S. and 
to our allies in the region. And it is important for Congress 
to keep a close watch on this situation.
    I am especially pleased we are doing this hearing jointly 
today with the Foreign Affairs Committee because we know in 
many situations, there is not always a military solution.
    We have to always be ready, militarily, but we realize that 
it is critical that we have diplomatic and political aspects to 
be considered and obviously they are always the first recourse 
and the first choice when trying to resolve concerns.
    We want to make sure that we have that perspective. We have 
a full range of tools at our disposal to consider when we look 
at various crises that may arise in this region.
    Not every problem we know has a military solution. It is 
likely to mean that we should be in a position to look at how 
best we can resolve maritime disputes with China and that we 
can have a more robust diplomacy engaged in this region rather 
than seeking a military standoff.
    We know that Japan has a strong military; however, some of 
our other allies in the region do not. And they are being 
intimidated, especially in the South China Sea.
    So, without the naval and maritime air capabilities to 
patrol and protect this territory, many nations in the region 
are at a major disadvantage when they do feel threatened 
militarily.
    So, over time, we have to address these imbalances between 
China and the regional--the countries in that region that could 
have a significant impact on China's actions but also have a 
significant impact on these countries and their security and 
safety.
    The U.S. does have a major role to play in working with 
China with regard to international standards of conduct, and we 
should support our regional allies in every way we can to make 
sure that our allies are considered equal partners with us.
    And we have had other briefings where the military has laid 
out its ambitions to engage with and in some--sometimes train 
our regional allies. Those military efforts are absolutely 
important, but we realize those military efforts cannot stand 
as the sole response.
    We must have a concerted diplomatic effort. And right now, 
we do not quite seem to have reached that goal of having that 
concerted diplomatic effort.
    We must be able to make sure that we are not always 
reacting, but also being proactive in making sure that we have 
the best possible diplomatic solutions, as well as the best 
possible military preparation to make sure that we are in a 
situation where we can resolve differences and be able to avoid 
conflict.
    We are very thankful for those who serve in our military, 
and are always ready and on standby. We want them to always be 
in a position to be prepared. We also now must make sure that 
we are always prepared to handle matters diplomatically, and do 
what we can to help resolve conflict.
    We look forward to hearing from today's panel of experts, 
and thank you for your time with us. And thank you, Mr. 
Chairman, and Mr. Ranking.
    Mr. Chabot. I thank the gentleman for his opening 
statement. The Ranking Member of the Asia and Pacific 
Subcommittee is unable to be here, Mr. Faleomavaega. So the 
acting Ranking Member is Mr. Bera from California, I would like 
to recognize him for making an opening statement.

 STATEMENT OF HON. AMI BERA, A REPRESENTATIVE FROM CALIFORNIA, 
  ACTING RANKING MEMBER, SUBCOMMITTEE ON ASIA AND THE PACIFIC

    Dr. Bera. Great. Thank you, Chairman Chabot. Thank you, 
Chairman Forbes, for what is an incredibly important, crucial, 
and timely hearing on maritime sovereignty in the South and 
East China Seas.
    I believe it is important for us, as a Congress, to really 
begin exploring what actions we should take to maintain these 
key maritime and airspace routes, and keep them open. I also am 
deeply concerned about the actions China took, particularly the 
rapidity of the announcement on unilaterally establishing a new 
East China Sea Air Defense Identification Zone, an ADIZ.
    China's dramatic ADIZ expansion really extends over the 
East China Sea territories that historically have been under 
the hands of administrative control, and certainly overlaps 
with ADIZs of Japan and the Republic of Korea, two important 
allies of the United States.
    China is also now requiring that foreign aircraft file 
flight plans if they intend to fly in Chinese airspace, and has 
threatened that their armed forces would respond in cases of 
non-compliance. Furthermore, China continues to exhibit a 
disturbing trend in their foreign policy.
    We have seen this before, if we look at the example of the 
South China Sea, you know, as they extended. And if you look at 
the nine-dash line area, it creates conflict, it creates 
tension and uncertainty. And, you know, if we don't respond 
immediately, you know, over time, it becomes much more complex 
and much more difficult for us to address.
    The nine-dash line affects island groups and reefs that are 
also claimed by Indonesia, Malaysia, the Philippines, Taiwan, 
Vietnam, all important trading partners of the United States, 
and all at a crucial time when we are demonstrating this pivot 
to Asia. And the United States has a role in mediating and, you 
know, lowering the volume here a bit.
    China is also requiring that all foreign fishing vessels 
obtain permission from China to navigate these contested 
waters. Unacceptable. China--China--Chinese authorities are 
showing vigor, and pushing maritime power as a fundamental 
national goal, and one that they are willing to challenge 
anyone on.
    We have got to send, as a body, in a bipartisan manner, a 
strong message to China that these threatening and provocative 
moves to assert their maritime territorial claims are 
unacceptable. These steps clearly undermine the peace and 
stability of the Asia-Pacific. If China is left unchallenged, 
China's claims over the region will solidify, thus altering the 
status quo.
    The time for a provocative and strategic engagement with 
our allies is now, before China's next move, like more ADIZ 
expansions for the South China Sea or the Yellow Sea. We have 
got to do this immediately. China and the other nations in the 
region must address any outstanding territorial and 
jurisdictional issues by engaging in diplomatic dialogue, and 
not through coercion, threats, or force.
    International laws and norms must be upheld in order to de-
escalate tensions and mitigate any risk of an accidental 
military clash. And that is dangerous. Given the importance of 
trade and transport in this region, the U.S. must navigate and 
enforce the right to freely navigate in these contested areas.
    Again, Mr. Chairman, thank you for calling this important 
hearing. I look forward to hearing the testimony of the 
witnesses and working together as a body. I yield back.
    Mr. Chabot. I thank the gentleman for his statement, and 
the chair would be pleased to extend an opportunity for members 
to make a 1-minute opening statement if they would like to do 
so. The gentleman from California, Mr. Rohrabacher, is 
recognized.

   STATEMENT OF HON. DANA ROHRABACHER, A REPRESENTATIVE FROM 
        CALIFORNIA, SUBCOMMITTEE ON ASIA AND THE PACIFIC

    Mr. Rohrabacher. Thank you very much. The alarm bells may 
finally be ringing, what some of us have been warning about for 
years. The fact that we have been treating China, the world's 
worst human-rights abuser, as if it was a democratic ally, we 
have been giving trade and economic benefits to the Chinese 
government, which as I say, the world's worst human-rights 
abuser, a vicious dictatorship.
    We have been giving better rights than we do to some of our 
own friends and some of our democratic allies. They have had 
most-favored-nation status now for almost 20 years. Some of our 
other allies haven't had that.
    And now they have built up their economic might, and 
surprise, surprise, they are using their new capabilities to 
build a very powerful military machine that threatens the peace 
and stability not only of that region, but of the world.
    Well, I would call on this Administration and my 
colleagues, and all of us who want peace, and want and believe 
in democracy. It is time for us to back up 100 percent our 
allies who are front line, confronting this new threat, whether 
it is Australia, Japan, Taiwan, Korea, or the Philippines. We 
need to get behind them in a big way, and send that message to 
Beijing.
    There is no faltering on our part, supporting these 
countries, these democratic countries, against this 
dictatorship's claims and its military buildup in the region. 
Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time is expired. The 
gentleman from Connecticut? The gentleman from California, Mr. 
Sherman, is recognized for the purpose of making a 1-minute 
statement.

     STATEMENT OF HON. BRAD SHERMAN, A REPRESENTATIVE FROM 
        CALIFORNIA, SUBCOMMITTEE ON ASIA AND THE PACIFIC

    Mr. Sherman. Our national policy establishment has embraced 
the new phrase, ``pivot toward Asia,'' which sounds like more 
trade delegations to Tokyo and more Chinese language courses in 
our university, but actually means that the fight against 
Islamic extremism is either over or it is inconvenient, and we 
are directing our national security efforts toward confronting 
China as the new enemy.
    Already, the Pentagon is shifting its design of its 
research, and ultimately forces toward taking on the Chinese 
navy. We are told that we need to pivot to Asia to protect tiny 
specks that may be of some economic value to countries that 
spend far less of their GDP [gross domestic product] than we 
do, protecting their own little--little island specks.
    The fact is that a confrontation with China may give our 
national security establishment a--the kind of glorious enemy 
that they would like to have, rather than the frustrations of 
dealing with asymmetric conflict against an enemy that doesn't 
wear uniforms.
    But the fact is, these are tiny specks. Those nations that 
claim them are willing to fight to get--as long as we spend 
trillions of dollars to protect what might be billions of 
dollars of assets. I yield back.
    Mr. Chabot. Thank you. The gentleman's time is expired. 
Gentleman from Arizona, Mr. Salmon, is recognized for a minute.

 STATEMENT OF HON. MATT SALMON, A REPRESENTATIVE FROM ARIZONA, 
              SUBCOMMITTEE ON ASIA AND THE PACIFIC

    Mr. Salmon. Thank you. I would like to thank my chairman, 
Steve Chabot, and Chairman Forbes for holding this joint 
hearing on this critical national security and foreign-policy 
issue.
    Over the last several years, we have seen increased 
aggressions in the disputed waters of the South China Sea, and 
more recently, the East China Sea. As China has sought to 
expand their control of the region, U.S. allies are struggling 
to ensure their sovereignty is maintained and navigational 
rights to the South and East China Sea is protected.
    Military and commercial access to the navigable waters of 
the South and East China Seas are critical to the security and 
economic viability of every country in the region. Strong U.S. 
allies, including Japan, Taiwan, and Philippines, Vietnam, 
South Korea, have come under increasing pressure from China to 
cede or temper these inalienable sovereign rights to the 
Chinese will.
    There must be a peaceful pass forward to protect the U.S. 
regional allies that ensures U.S. national security interests 
and avoids unnecessary conflict and aggressions.
    President Ma of Taiwan has proposed the East China Sea 
Peace Initiative as a means to resolving disputes peacefully by 
exercising restraint, refraining from taking antagonistic 
actions, following international law, and continuing dialogue. 
I hope the Chinese and the other regional powers will embrace 
this as a solution going forward.
    China has indicated a desire to settle disputes peacefully, 
but has been unwilling to open dialogue and negotiations in a 
multilateral way. This is disappointing. We have got to 
continue to align with our allies in assuring their sovereign 
rights to open commercial and military access to the waters of 
the South and East China Seas.
    Hopefully, the Chinese will work with their neighbors and 
implement a peaceful, multilateral dispute resolution system 
that will protect all countries' sovereign rights going 
forward. Thank you. I yield back.
    Mr. Chabot. I thank the gentleman. The gentleman from 
Georgia. The gentleman from Georgia is recognized.

      STATEMENT OF HON. HENRY C. ``HANK'' JOHNSON, JR., A 
   REPRESENTATIVE FROM GEORGIA, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Johnson. Yes, I will. I will take the opportunity to 
say that, you know, we face some very serious issues throughout 
the world. Sequestration and budget numbers in that area don't 
help us out a whole lot when it comes to confronting these 
challenges, both in the Middle East and the Asia-Pacific.
    But I will say, I am happy to share this--this room today 
with members of the Foreign Affairs Committee, because if we 
have ever--if ever there has been a time for diplomacy, it is 
now. And so with that, I will yield back.
    Mr. Chabot. I thank the gentleman for yielding back. Would 
other members like to make opening statements on either side? 
If you could indicate you do, I would be happy to recognize 
others. If not, we will go ahead and proceed to the 
introduction of the witness panel.
    We have a very distinguished panel of witnesses here this 
afternoon. We will begin with Mr. Peter Dutton, who is a 
professor of strategic studies, and the Director of the China 
Maritime Studies Institute at the U.S. Naval War College. 
Professor Dutton's current research focuses on American and 
Chinese views of sovereignty and international law of the sea, 
and the strategic implications to the United States and the 
United States Navy of Chinese international law and policy 
choices. Professor Dutton is widely published, and has 
previously testified before the Senate Foreign Relations 
Committee. He also researches and lectures on topics related to 
international law of the sea, issues in the East and South 
China Seas, East and Southeast Asia and the Arctic, in addition 
to the Proliferation Security Initiative and Maritime Strategy.
    He is a retired Navy Judge Advocate and holds a Juris 
Doctor from The College of William and Mary, my alma mater, a 
Masters with Distinction from the Naval War College, and a 
Bachelor of Science cum laude from Boston University.
    We welcome you, Mr. Dutton.
    I would like to also introduce the other panel members.
    We have Bonnie S. Glaser, who is a senior advisor for Asia 
and the Freeman Chair in China Studies at the Center for 
Strategic and International Studies [CSIS] where she works on 
issues related to Chinese foreign and security policy. She is 
concurrently a senior associate with CSIS Pacific Forum and a 
consultant for the U.S. government on East Asia. Ms. Glaser 
previously served as senior associate in the CSIS International 
Security Program. Prior to joining CSIS, she served as a 
consultant for various U.S. government offices including the 
Departments of Defense and State. Ms. Glaser has written 
extensively on Chinese threat perceptions and U.S.-China 
strategy. She received her B.A. in Political Science from 
Boston University and her M.A. with concentrations in 
international economics and Chinese studies from the John 
Hopkins School of Advanced International Studies.
    And we welcome you here this afternoon, Ms. Glaser.
    Our final witness will be Jeff M. Smith, who is the Kraemer 
Strategy Fellow at the American Foreign Policy Council (AFPC) 
and the author of a forthcoming book on China-India relations 
in the 21st century. He also serves as the managing editor of 
the World Almanac of Islamism and the editor of AFPC's South 
Asia Security Monitor. He has provided briefings and 
consultations for the Pentagon, State Department, and 
intelligence community. Mr. Smith's writings have appeared in 
the Wall Street Journal of Asia, U.S. News and World Report, 
among others. Additionally, he has been a commentator for many 
world news organizations such as BCC and others.
    Mr. Smith has an MPIA [Master of Public and International 
Affairs] from the University of Pittsburgh's Graduate School of 
Public and International Affairs and studied abroad at Oxford 
University in 2005. He has lectured at the graduate and 
undergraduate level.
    We welcome all three of you this afternoon. I apologize for 
my voice which is not up to the standards it ought to be, but 
not much I can do about it.
    I am sure that the panel is familiar with the 5-minute 
rule. You will each have 5 minutes to testify. We have a 
lighting system. The yellow light will come on when you have 1 
minute to wrap up. We would appreciate it if you wrapped up as 
closely to when the red light comes on as possible.
    And, Professor Dutton, you are recognized for 5 minutes.

   STATEMENT OF PETER A. DUTTON, STRATEGIC RESEARCHER, CHINA 
       MARITIME STUDIES INSTITUTE, U.S. NAVAL WAR COLLEGE

    Mr. Dutton. Thank you very much, Mr. Chairmen, Ranking 
Members, and distinguished members of the subcommittees. Thank 
you very much for the opportunity to testify before you today.
    The first question I was asked to address has to do with 
what it is that China's extension of power over the Near Seas 
gains for China, and the extension of China's strategic power 
over its Near Seas through expanding military capabilities, 
growing law enforcement capacity, sweeping legal frameworks, 
augmented by orchestrated civilian activities and political and 
economic arm-twisting, has deep strategic roots.
    And the roots are grounded, in China's view, that prior to 
1840--and this goes back in history, but prior to 1840 when 
China dominated the East Asian system, it was a continental 
system, all of the strategic events occurred on the continent 
and China could dominate the maritime periphery and the 
maritime periphery could not dominate China.
    After 1840, that reversed. It is the maritime periphery 
where the strategic actions in Asia have been evolving, and it 
is in the American interest for it to remain that way.
    So, first and foremost, it is the failure of previous 
Chinese leaders to close the maritime gap in China's arc of 
security and the invasions from the sea that resulted that 
motivates China's current leaders to extend strategic power 
over the Near Seas and which provides them internal domestic 
legitimacy. I think that is important to note.
    Second, as China advances, the aim of China's regional 
maritime strategy as it advances is to expand its interior 
control over the Near Seas to cover the maritime demand under 
an umbrella of continental control for the purpose of enhancing 
that perceived security that China gains from this.
    So the two attributes that China gets are security and 
leadership legitimacy from extending its control over the 
region.
    Second, what does this have to do with the Senkakus? 
Chinese activities around the Senkaku/Diaoyu Islands have, 
since December 2008, been designed to create a circumstance 
that puts Japanese control over the islands in doubt.
    The manner in which Chinese activities are conducted is 
carefully calibrated to achieve the objective without provoking 
outright conflict with the United States.
    China's strategy can best be described, in my view, as non-
militarized coercion. Non-militarized coercion involves the 
direct and indirect application of a broad range of national 
capabilities to favorably alter the situation at sea in China's 
favor.
    That does not mean that the military has no role to play. 
The military's role, however, is indirect as part of the 
escalation control mechanism that China uses not to provoke 
conflict with the United States as it pursues its objectives.
    The integrated process of power and law accurately 
describes the events around the Senkaku/Diaoyu Islands and also 
with the Scarborough Shoal in the South China Sea, over which 
China wrestled full control from the Philippines over a year 
ago.
    There are many other examples in various stages of 
development around China's periphery, including China's claim 
to the East China Sea continental shelf and China's advancing 
claims to administer the waters within the nine-dash or U-
shaped line in the South China Sea.
    The third question is what does the Air Defense 
Identification Zone have to do with this? Well, China's 
strategy to control water and airspace is similar to its power 
and approach to controlling the islands in the East and South 
China Sea.
    The purpose of China's force structure component is 
obviously to develop the power to dominate events in the Near 
Seas according to will--China's will. The purpose of the legal 
component of China's strategy is to articulate a legitimizing 
narrative for the development and employment of this power.
    So China's ADIZ is part of a coordinated legal campaign to 
extend maximal security jurisdiction over the East China Sea 
and the international airspace above it, beyond the authorities 
currently allowed by international law, in support of its 
objectives related to security, resource control, and regional 
order.
    And so what are the policy implications for the United 
States? Well, there are many, but I would like to point out 
just a few.
    The first is the Chinese have been talking this great 
power--``new-type great power relationship'' with the United 
States. I think we need to come back with expectations that 
China will become a responsible leading power.
    Leading in the sense of leadership over the existing global 
system of institutionalized economic and security mechanisms 
designed to foster regional and global stability and economic 
progress.
    Responsible as a supporter and defender of that system and 
all its attributes, the institutions, the laws, the rules, the 
principles and norms, and refraining from self-interested 
actions that conflict with them.
    And, power, in recognition that China is one of only a few 
states with global economic, political, and security interests 
and some capacity to exercise global leadership.
    I have a number of recommendations we can talk about during 
testimony if you would like. Thank you.
    [The prepared statement of Mr. Dutton can be found in the 
Appendix on page 44.]
    Mr. Chabot. I thank the gentleman for your testimony.
    We will turn to Ms. Glaser. You are recognized for 5 
minutes.
    If you could turn the mic on please. Thank you.

STATEMENT OF BONNIE S. GLASER, SENIOR ADVISOR FOR ASIA, FREEMAN 
  CHAIR IN CHINA STUDIES AND SENIOR ASSOCIATE, PACIFIC FORUM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Glaser. Mr. Chairmen, Mr. Ranking Members, 
distinguished members of the subcommittees, for this 
opportunity to offer my thoughts on China's maritime disputes.
    As you all said, disputes in the waters and airspace off 
China's eastern coastline have fueled increased tensions in 
recent years, both between China and its neighbors as well as 
between China and the United States.
    How Beijing manages these disputes is widely seen as a 
litmus test of China's broader strategic intentions, and how 
the United States responds to China's growing propensity to use 
coercion, bullying, and ``salami-slicing'' tactics to secure 
its territorial and maritime interests is increasingly viewed 
as the key measure of success of the U.S. rebalance to Asia.
    The risk of a clash with the attendant potential for 
escalation is highest today, I think, between China and Japan 
in the East China Sea. And the United States could become 
entangled in such a Sino-Japanese conflict as a result of its 
obligations under the U.S.-Japan mutual security treaty.
    China's recent declaration of an ADIZ that overlaps 
substantially with Japan's ADIZ and covers the disputed islands 
significantly increases that risk of accident and 
miscalculation.
    China's ``salami-slicing'' tactics have been evident in 
both the East China Sea and the South China Sea. Through a 
steady progression of small steps, none of which by itself is a 
casus belli, China seeks to gradually change the status quo in 
its favor, and it is scoring some victories without adequate 
consequences.
    Chinese efforts to restrict free use of the maritime 
commons is also worrying. We saw the recent example on December 
5th in which the PLA [People's Liberation Army] Navy vessel 
engaged in dangerous maneuvers to stop the USS Cowpens from 
observing drills conducted by China's aircraft carrier.
    And as U.S. and Chinese vessels operate in increasingly 
close proximity, I think such incidents are likely to increase.
    Regional concerns about territorial and maritime disputes 
in the Asia-Pacific are very much on the rise. East Asian 
governments increasingly view closer ties with the United 
States as a useful hedge against potential domineering behavior 
by China.
    Virtually every country in Northeast Asia and Southeast 
Asia has been publicly or privately supportive of the U.S. 
rebalance to Asia. They hope the U.S. will sustain its role as 
balancer and counterweight to growing Chinese power.
    But I must emphasize that doubts persist about the 
credibility and the constancy of U.S. power.
    The U.S. has multiple interests at stake in these maritime 
disputes. We all know the U.S. supports--we have at stake the 
maintenance of freedom of navigation, the encouragement of a 
rules-based international system, the maintenance of U.S. 
credibility and influence in the region, certainly the peaceful 
resolution of disputes.
    We also have an interest in the development of a 
cooperative relationship with a rising China. In the coming 
decade, the U.S. role I think will be pivotal in shaping the 
strategic landscape in the Asia-Pacific region.
    We must continue to be engaged economically, 
diplomatically, and militarily to influence the future balance 
of power in the region and ensure it remains favorable to the 
interests of the United States, its allies, and its partners.
    Congress can play a vital role in this process and my 
recommendations for Congress going forward are as follows:
    First, Congress should require the executive branch to 
produce a strategy paper on the rebalance to Asia. The paper 
should establish explicit objectives and benchmarks for 
evaluating progress.
    And it should include incentives to China to abide by 
international law and practices, as well as consequences for 
violating them.
    Second, Congress should encourage other governments and 
legislatures in the Asia-Pacific to back the Philippines' right 
to use available international arbitration mechanisms to 
address its territorial dispute with China.
    If this tribunal rules in Manila's favor, and China does 
not comply, this will have profoundly negative impact on peace 
and stability in the region. This is a way to tether China to a 
rules-based order. It is an opportunity.
    Third, the United States Senate, I believe, should ratify 
UNCLOS [United Nations Convention on the Law of the Sea], to 
increase the effectiveness of U.S. efforts to pursue a rules-
based approach to managing and resolving disputes over maritime 
jurisdiction.
    And fourth, Congress should enact trade promotion authority 
legislation so that the Administration can persuade the other 
countries negotiating the TPP [Trans-Pacific Partnership] that 
the U.S. will be able not just to sign, but also ratify a high-
standard TPP agreement.
    Maintaining American economic leadership in the Asia-
Pacific is imperative to enhancing the U.S. ability to achieve 
its other interests, including the promotion of a rules-based 
system and the peaceful settlement of maritime disputes. Thank 
you very much.
    [The prepared statement of Ms. Glaser can be found in the 
Appendix on page 56.]
    Mr. Chabot. Thank you very much for your testimony. Mr. 
Smith, you are recognized for 5 minutes.

 STATEMENT OF JEFF M. SMITH, DIRECTOR OF SOUTH ASIA PROGRAMS, 
    KRAEMER STRATEGY FELLOW, AMERICAN FOREIGN POLICY COUNCIL

    Mr. Smith. I would like to thank the chairmen and the 
ranking members for the opportunity----
    Mr. Chabot. If you could turn the mic--thank you.
    Mr. Smith. I would like to thank the chairmen and the 
ranking members for the opportunity to appear before you today.
    In recent months, the world attention has been focused on 
China's provocative behavior towards the Senkaku and Diaoyu 
Island dispute, and for good reason. That dispute demands our 
utmost attention, and poses a tangible risk for interstate 
conflict in the years to come.
    However, the issue of maritime sovereignty in the East and 
South China Seas encompasses more than simply China's 
territorial disputes with its neighbors. I want to focus my 
remarks on a disagreement between the U.S. and China over the 
type of sovereignty China is claiming in its 200 nautical-mile 
exclusive economic zone, or EEZ, and specifically, the right of 
the U.S. military to conduct surveillance operations there.
    Our dispute derives from differing interpretations of the 
U.N. Convention on the Law of the Sea, or UNCLOS, a treaty the 
U.S. has not signed, but whose maritime boundary distinctions 
we observe and practice. Under Beijing's interpretation, China 
enjoys expansive sovereign rights in its EEZ, including the 
right to deny U.S. military access to conduct surveillance 
operations.
    China is not alone in this interpretation. At least 16 
other countries share Beijing's position. But China is the only 
country that has operationally challenged U.S. forces, leading 
to more than half a dozen dangerous confrontations at sea over 
the past decade, which are documented in the appendix to my 
testimony.
    The U.S. and most countries of the world reject this 
interpretation of UNCLOS, arguing that China cannot treat the 
EEZ as if it were a sovereign territorial sea. My testimony 
shows how U.S. scholars have thoroughly debunked Beijing's 
reading of the treaty, and that UNCLOS does not require home-
state consent to conduct surveillance operations in an EEZ.
    Yet the confrontations continue. And if the U.S. and China 
don't come to a modus vivendi on a code of maritime conduct in 
Western Pacific, the possibility for escalation and 
confrontation is very real.
    Further aggravating the situation is the poor military-to-
military [mil-mil] relationship between our two countries. 
Though we have taken some small steps forward in engaging the 
PLA in recent years, mil-mil remains the most underdeveloped 
and concerning aspect of bilateral relations.
    While the political and professional Chinese elite are 
experiencing an unprecedented level of exposure to the outside 
world, this encouraging trend has not yet reached the People's 
Liberation Army, which tightly restricts contacts with the 
U.S., particularly for junior officers.
    By design, the PLA ranks remain conspiracy-minded, hawkish, 
and insulated from the Western world, and even to some liberal 
influences within China. This is worrying, because many Chinese 
nationalists inside and outside the PLA see the U.S. as engaged 
in a containment strategy designed to prevent China's rise and 
undermine its security.
    Firebrand nationalists are taking to the airwaves and Web 
pages to denounce a U.S. foreign policy they believe is 
aggravating China's territorial disputes with Japan, the 
Philippines, and Vietnam. And China's leaders are increasingly 
pandering to these nationalists, escalating their own hawkish 
rhetoric, and in the process, restricting their freedom to 
maneuver in the future.
    The trend is worrying enough that last year, the vice 
president of the PLA's Academy of Military Science warned 
publically that PLA commentators were ``inciting public 
sentiment and causing interference with our high-level policy 
decision-making and deployments.''
    Testing boundaries and establishing new status quos 
favorable to China has been a defining feature of its regional 
policy in recent years. When the U.S. and other countries have 
faltered in the face of this policy, as was the case with the 
Philippines in the Scarborough Shoal, China has advanced its 
goals and established new status quo.
    However, where the U.S. has held firm in its position and 
demonstrated resolve, Beijing has backed down. The same result 
must be committed to surveillance activities in China's EEZ.
    America's position on this issue is not only within the 
U.S. national interest, it is fully supported by domestic and 
international law. Were we to accept China's interpretation of 
UNCLOS, U.S. military vessels could be barred from operating in 
large swaths of the world's oceans, an outcome that is clearly 
unacceptable to Washington and one never envisioned by the 
drafters of UNCLOS.
    The U.S. has in the past attempted to create a code of 
conduct with China on these matters. However, talks have been 
stalled on Chinese demands that the U.S. end arm sales to 
Taiwan, put an end to surveillance activities, and repeal 
provisions of the 2000 National Defense Authorization Act.
    The U.S. should do everything at its disposal to ensure 
future incidents do not escalate, but it must reaffirm that 
U.S. policy will not be subject to fear, intimidation, 
coercion, or reckless behavior from Chinese naval forces.
    Furthermore, Washington must do a better job drawing clear 
red lines around unacceptable behavior in the maritime arena 
and enforce those red lines when they are crossed. To that end, 
the U.S. should continue an active schedule of surveillance 
activities, patrolling, and freedom of navigation operations.
    America carries a special burden on this issue. While 
Beijing views its neighbors as subservient regional powers, the 
Chinese leadership acknowledges and respects American power, 
even as they increasingly resent that power.
    As perhaps the only country capable of drawing and 
enforcing red lines, America's allies in the region are 
depending on the U.S. to be a firewall against Chinese 
aggression in the Western Pacific. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 70.]
    Mr. Chabot. Thank you very much for your testimony. I now 
recognize each of the Members for 5 minutes to ask questions. 
And I will recognize myself at this time.
    Ms. Glaser, let me start with you first, if I can. In your 
testimony, you recommended that Congress urge the executive 
branch to impose consequences on China when they violate 
international laws and norms. How do you propose the 
Administration penalize China, or punish China, or whatever the 
proper verb would be, for violating international laws such as 
its decision to unilaterally impose an Air Defense 
Identification Zone, for example?
    Ms. Glaser. Thank you very much, Mr. Chairman, for your 
very important question. I think that the Administration took 
one very important step, and that was flying our B-52s through 
that zone, not recognizing the zone.
    I think we should be doing more. The United States and 
Japan, for example, could conduct joint flights through that 
zone.
    In other words, the message is that China's behavior 
threatens the security of its neighbors, and therefore, there 
is a stepped-up military response. So there should be, I think, 
greater cooperation.
    I would also like to see the United States continue to 
encourage greater military cooperation among Japan, and South 
Korea, and the United States, which is ongoing, and I think has 
been somewhat complicated by some of the political decisions 
recently made in Japan by Prime Minister Abe in his visit to 
the Yasukuni Shrine. But I think that ultimately, these are 
very, very important.
    In other cases, I think that the United States can adopt 
targeted sanctions or responses to Chinese behavior. For 
example, in the cyber area, it has been widely discussed how 
the United States might adopt some very targeted sanctions that 
are aimed at responding to China's use of cyber to steal 
intellectual property, commercial proprietary information.
    So those are some of the examples that I would give. Thank 
you.
    Mr. Chabot. Thank you very much. Professor Dutton, let me 
turn to you next, if I can. You mention a couple of things that 
I wanted to touch on.
    In your testimony, you said that unless current trends in 
the region change, there is no reason to believe that China's 
campaign will stop short of achieving its aims, which are 
gaining the upper hand on regional security, redeveloping 
regional order, and gaining control of maritime resources. You 
also said that the U.S. should seek to develop a new type of 
great-power relationship with China. What does such a 
relationship look like? Also in terms of this trend China is 
creating, I believe it is in our interest to slow that trend 
down, and in fact, to stop it. How do you also suggest that we 
accomplish that?
    Mr. Dutton. Yes, thank you very much for the question. 
First, I would like to say that U.S. and regional strategies 
have largely been reactive. In other words, China has had and 
maintained the initiative.
    I think we need to restore the initiative in this process 
by thinking about rather than what I will call ``negative 
objectives,'' in other words, prevent bad things from 
happening, let's have a positive objective, which is to create 
a region that is fully integrated into the global system and 
stable at the same time.
    So part of what I was articulating since I submitted the 
testimony, I thought more about your question. And actually, in 
my oral comments, made the point that we need to expect China 
to be a responsible leading power, not just a, frankly, self-
interested regional leading power, right. We need to expect 
them to do more for the system and to support the system, 
because of the benefits that they receive from it.
    What that means is, in terms of the consequences that my 
colleague, Ms. Glaser, is talking about, we need to think about 
consequences that broaden the horizon of options. In other 
words, if we just respond in kind--if China provokes, we 
respond with a similar kind of action--then we are still being 
reactive.
    So we need to think more broadly about the type of 
responses. So if China does something in the security field, 
well, maybe we need an economic or political reaction to it, 
not just a security reaction, in ways that imposes a cost on 
China, that China would prefer not to have to pay.
    For instance, China was invited to join the Arctic Council 
recently. That is a benefit that China has received. There are 
other similar kinds of things that China would like to receive.
    Well, we need to impose costs when China fails to act in 
ways that benefit and support the system. We are inviting them 
to share responsible leadership into the system; now we need to 
expect them to maintain proper leadership over the system's 
rules, norms, principles, and laws.
    Mr. Chabot. Okay. Thank you very much. My time is expired.
    The gentleman from Connecticut, Mr. Courtney, is recognized 
for 5 minutes.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you for 
organizing this hearing and the witnesses for their outstanding 
testimony.
    Mr. Dutton, in your sort of policy recommendations starting 
on page nine, again, deterrence was certainly one of the 
recommendations you set forth.
    And in particular, you said, ``In terms of naval power, I 
am especially concerned that the U.S. continue to invest in 
maintaining its advantage in undersea warfare.''
    I mean, given the fact that some of these bodies of water 
are described as relatively shallow, maybe you could just sort 
of explain your thoughts on that.
    Mr. Dutton. First I would--certainly, sir. Thank you for 
the question. I--first of all, the ability to impose maritime 
actions in East Asia requires our ability to access the water 
space.
    And although, yes, in some parts of the East China Sea, in 
particular, the water space is relatively shallow and submarine 
operations in that particular location may or may not be 
appropriate--I am not a submariner, I don't know.
    But the truth of the matter is the submarine component of 
American naval power is one in which we enjoy an advantage, and 
that advantage is one that we need to maintain in order to 
maintain our access for all forces within the region. That is 
the point I am trying to make.
    Mr. Courtney. Okay, thank you. And your second 
recommendation, again, talked about sort of coordinating with 
our allies in the region in terms of, you know, making sure 
that not everybody is, you know, kind of duplicating, I guess, 
resources.
    The New York Times the other day had an editorial, ``The 
Submarine Race in Asia,'' which talked about how, you know, the 
Vietnamese navy and the Malaysian navy and--I mean, everybody's 
navy is sort of rushing to, you know, buy or build submarines.
    Your recommendation seems to be that some of these allies 
should be more focused on sort of Whitehall Coast Guard-like 
capability and sort of--I guess I am sort of--well, maybe you 
can tell me.
    Are you sort of suggesting that the sort of military side 
should be sort of the U.S. Navy's realm? Am I reading that 
right?
    Mr. Dutton. Well, it is sort of--we certainly welcome 
support. I think the United States Navy has been very open and 
clear about that.
    I don't mean to speak for the Navy. What I mean to say is 
that the Navy has been very open in terms of support for naval 
activities in the region.
    But what we don't want to see is a negative spiral--
negative security spiral. What we want to see is a more 
positive direction for maritime power in the region.
    And one of the things--countries will make their own 
decisions about what force structures they need to have--but 
one of the things that is important that all countries in the 
region be able to do is to enforce their own maritime interests 
in terms of their exclusive economic zone and the fisheries 
issues that they have rather than simply allowing China to 
continue to build its law enforcement capacity without any 
regional response.
    So, I am not suggesting that the regional states should not 
make their own decisions about their force structure, but I do 
hate to see a negative regional spiral in which countries are 
starting to get into arms races that could be very 
destabilizing.
    Mr. Courtney. Great, thank you.
    Ms. Glaser, you know, sort of--there has been a little bit 
of what came first, the chicken or the egg. Is it the Asia 
pivot that stimulated the claim of territorial space or is the 
pivot in reaction to the claims of territorial space?
    And I just wondered if you could sort of give your thoughts 
in terms of, you know, the Asia pivot, in terms of whether it 
was justified or whether it is provoking a negative reaction.
    Ms. Glaser. Well, thank you very much for that question. I 
think that is actually a narrative that is quite common in 
China.
    And I think when the Obama administration came to power, 
they had the idea that--this is particularly in 2009--that 
China was going to be a partner on a range of issues that were 
very important for the United States.
    We heard officials talk about how no global problem could 
be solved without Chinese cooperation. So, global warming, 
proliferation, the global financial crisis--these were all 
things that the United States was going to work with China on.
    And this was really borne out of the same time that the 
pivot really came into being, even though it wasn't really 
announced until later. Very early on, as we heard from former 
National Security Advisor Tom Donilon in a speech that he gave 
at CSIS, Administration advisors even before the President was 
inaugurated, I understand, talked about where we were 
overinvested in the region, where we were underinvested.
    It was so clear that the economic dynamism in the Asia-
Pacific was so important to the rejuvenation of the American 
economy and the institutions that were being formed in the 
Asia-Pacific region like the East Asia Summit--we needed to be 
a part of; and that decision was made really very, very early 
on.
    So, I think that the rebalance to Asia from the beginning 
was about including China, and it is China's more coercive 
behavior that we saw really take full form, I think, in 2010 
and then thereafter, that has caused it to have a sharper edge 
in dealing with China--in large part because of the magnetic 
demand pull from the region which has been calling on the 
United States to be more involved diplomatically, economically, 
and militarily--to give them some backing so that they, too, 
can stand up for their interests.
    Mr. Chabot. The gentleman's time has expired.
    Chairman Forbes is recognized.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank all of you for being here. You know, to each of 
you three witnesses, I appreciate your work. I have enormous 
respect for what you have done--your expertise.
    Undoubtedly, that is shared by both of our subcommittees 
and the staffs or else they wouldn't have invited you here.
    So, in that collective expertise, Ms. Glaser, I want to 
start with you, but I want both of our other witnesses to weigh 
in on this.
    You mention this concept of strategy. We have been groping 
around in the night to try to find it.
    And as I think all of us recognize, we agreed with the 
concept of a pivot or rebalance to the Asia-Pacific area, but 
we also believe very strongly we needed to have a strategy that 
we could get our hands around.
    In July of last year, I wrote a letter to Susan Rice 
requesting that the Administration do an interagency review of 
their strategy so that we could articulate that and note what 
it was.
    I got a very prompt response back 3 months later that said 
that they had done that. They called it a vision, first of all, 
and then they came back and said, ``We are continuing to 
implement our comprehensive strategy.''
    But I have yet to find anybody that can really articulate 
that strategy or any of the agencies that say, ``Yes, we have 
sat down and done this.''
    In the new omnibus bill that is coming up there is good 
language in here because we require within 90 days after the 
enactment of that provision that the Secretary of State do just 
that--develop that strategy and give an integrated, multi-year 
planning and budget strategy for rebalancing of United States 
policy in Asia back to the respective committees.
    In your expertise and knowledge, do you believe that 
strategy exists today? Do we have any such interagency strategy 
that we have developed or do you think that is something that 
yet needs to be designed and developed?
    Ms. Glaser. That is, indeed, a very important question. I 
think that there are pieces of the strategy. I don't think they 
are necessarily well-coordinated.
    I think that the Defense Department [DOD] is working very 
effectively within the constraints of budget cuts and potential 
future sequestration cuts and I think that they are very 
focused on the problem----
    Mr. Forbes. I don't want to interrupt you--I want to just 
add this, too. We are being told by so many people that weigh 
in on this that this needs to be a more holistic approach, 
though; it can't be just----
    Ms. Glaser. Yes.
    Mr. Forbes. DOD. Do you agree with----
    Ms. Glaser. And that is exactly the point that I was going 
to make. We really do need more of a whole-of-government 
approach. You can't just have the diplomatic piece working at--
by itself and independently--and the economic piece and the 
military piece.
    I think it is very helpful when there is a central document 
that is generated in the Administration that assigns various 
responsibilities to certain agencies and then they all see how 
the means and the ends come together to--in the pursuit of very 
specific objectives.
    I don't think that the Administration has done that yet. 
There have been some very good speeches that have been given by 
senior Administration officials, but they are not seen by the 
region as sufficient enough to ease their concerns about U.S. 
staying power.
    There is growing concern in the region that the United 
States is being distracted--that the priorities of some of the 
officials in government are elsewhere. And the United States is 
a global power--we have priorities in many places in the world. 
And just because we happen to be doing something in the Middle 
East today doesn't mean that we can't also address our interest 
and the interests of the wider countries in the region at the 
same time.
    And a document like this, I think, will go a long way 
towards easing that concern and actually generating a more 
coherent strategy within the Administration. So, I am very much 
in support of this effort.
    Mr. Forbes. Mr. Dutton? Mr. Smith? How do you feel about?
    Mr. Dutton. I do agree, actually. And one of the problems 
we are confronting is that there is really a certain--I am 
going to call it strategic ambivalence here--in that on the one 
hand, the Administration seems to want to achieve a stable 
relationship with China. On the other hand, it wants to 
reassure friends, allies, and partners in the region.
    And that--those have become an increasingly difficult goals 
to reconcile because of the friction between the two in the 
region. So, we do, I think, need to, rather than simply say we 
want to deter, prevent, and maintain stability, we need to 
articulate a positive regional end state.
    In other words, what would a region in the--what would a 
positive regional system in Asia look like and how could we, 
then, begin to move closer toward it over time, rather than 
simply saying--rather we don't want anything bad or 
destabilizing or negative to occur in the region. How do we 
make it a positive region?
    Mr. Forbes. Mr. Smith.
    Mr. Smith. I want to associate myself with Bonnie and 
Peter's remarks and also say that I do think there is a great 
deal of room for us to further flesh out this pivot strategy.
    I get frequently asked, not only by Chinese guests but also 
by visiting fellows from other Asian countries, what does the 
pivot mean? Is it sustainable? What exactly are you trying to 
accomplish with it?
    And we are not always able to provide them good answers. 
There is a great deal of uncertainty that remains in the 
region.
    One trend I do think that is positive is that we have been 
emphasizing more of an economic and diplomatic component to it, 
rather than a purely military component. And I think that has 
helped the image of the pivot in the region, and I think we 
should continue to emphasize that.
    But I also don't think we should be ashamed of admitting 
our concerns. I think we should be candid with China, and we 
should note that some aspects of the pivot are our reaction to 
increasingly provocative behavior. And while we are not putting 
ourselves in a position to contain China, we are putting 
ourselves in a position to respond if China's behavior grows 
more provocative.
    Mr. Forbes. Thank you.
    And, Mr. Chairman, I yield back the balance of my time.
    Mr. Chabot. Thank you.
    I believe the gentlelady from Hawaii, Ms. Hanabusa, is 
recognized for 5 minutes at this time.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    In reading the testimony--I am going to begin with Mr. 
Dutton--you had an interesting statement in your conclusion, 
that, basically, you said, ``first and foremost, the United 
States must develop and deploy the naval, air, space, and cyber 
technologies required to ensure East Asia remains a maritime 
system.''
    I am curious about how you anticipate or envision that it 
remains a maritime system, versus what other kind of system.
    Mr. Dutton. Yes. Thank you very much for the question.
    So, I started to introduce the idea in my opening comments 
that prior to 1840 and the introduction of British maritime 
power in the region, that Asia was a continental system that--
in other words, China, on the continent, could dominate the 
region, because there were no threats that could impose 
challenges--strategic challenges for China from the sea. And 
this is really what China is trying to change in developing its 
force structure and in jurisdictionalizing the region.
    The problem with that is that there is the possibility of 
it becoming over time a closed system. In other words, limiting 
the economic and political freedom of action of other regional 
states, unless China acknowledges or accepts what they are 
doing as being appropriate for China's interests.
    That limitation is also a problem for the United States, 
because our political, our economic, and our security access 
requires an open system, as well.
    Technology is the basis of maritime--an open maritime 
system. Ships, aircraft, supported by space and cyber power, 
are the way in which strategic power is generated in the 
region. And so, I don't have specific force structure 
recommendations, but I do know that we need to develop and 
maintain the kind of force structure, the technology in the 
region, that enables us to ensure that the maritime domain 
remains open, remains--freedom of navigation remains, not just 
for commercial purposes, but for security purposes, as well, in 
order to keep this system vibrant and open and connected to the 
global system.
    Ms. Hanabusa. So, am I hearing you correctly then? When you 
talked about it--I mean, maintaining or remaining a maritime 
system, that you are really saying that the United States must 
maintain its dominance in Asia-Pacific as a maritime power? Is 
that what you are saying? And that somehow, that maritime power 
base will then keep China in check, and keep our commercial 
lines open, trade flowing? Is that what you are alluding to 
with this statement?
    Mr. Dutton. In short, the answer is yes. But it--what I 
mean, too, to say is exactly how much power and how much force 
structure is required--that is a very difficult assessment that 
I am not qualified to make, frankly. And so, one thing that is 
important, though, is that there is a scale between dominant 
sea supremacy and sea denial on the other end, where you can't 
go. And somewhere in between there is where the United States 
needs to be sure that we can act. We don't need sea supremacy 
or total control. We need to recognize that China has 
legitimate security interests, right?
    But we do need to, also at the same time, recognize that we 
have legitimate security interests in the same space. And so, 
we need to ensure our access to that space to preserve our 
security interests.
    Ms. Hanabusa. And one of the recommendations, of course, 
that you made that was pointed out earlier was our undersea 
dominance, which is really submarine capacity, correct?
    Mr. Dutton. Yes.
    Ms. Hanabusa. Now--but still, what you are alluding to, 
though you said you don't know what the force structure will 
look like--what you are alluding to is that it is really not a 
balanced system that you want out there. You want something 
that will keep China in check. So, therefore, it would only 
make logical sense if the United States and its allies must 
somehow dominate, or have an advantage to keep China in check. 
That seems to be--though you don't know what it means yet, that 
seems to be where you are headed with that statement.
    Mr. Dutton. Well, I would say sufficient power to ensure 
our access. That is a little----
    Ms. Hanabusa. In other words, and so----
    Mr. Dutton [continuing]. Different. That is----
    Ms. Hanabusa [continuing]. And so, we don't have to worry 
about what we would call the A2/AD [anti-access/area-denial], 
area access and access denial. Is that what you are saying?
    Mr. Dutton. It is our ability to overcome any kind of A2/
AD, or counter-intervention capability, as China often, I 
think, refers to it.
    It is our ability to ensure that we cannot be excluded at 
China's will. It is not the same thing as ensuring that we keep 
China in check. It is a balance in between the two.
    Ms. Hanabusa. I understand what you are saying, but it 
still has to come down to some measure of something. In other 
words, we, as policymakers, as we sit here, we are going to 
have to put numbers to what you are saying. And there has got 
to be something that measures that for us. And what you are 
saying is, you don't have the answer. It is just that it has 
got to be measured somehow. Is that correct?
    Mr. Dutton. That is fair enough. Yes, sir, I think I 
would--or, ma'am, I would defer to the Navy staff for that.
    Ms. Hanabusa. Thank you.
    Mr. Chabot. The gentlelady's time has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 5 minutes.
    Mr. Rohrabacher. I thank you very much, Mr. Chairman.
    From what I am understanding from the testimony so far is 
that there is no strategy in place right now in terms of 
American strategy in the far Pacific Asian region. Anybody 
disagree with that?
    Okay.
    Let me suggest then that what I have heard suggests to me 
that the pivot was a slogan. A slogan signifying that we are 
changing emphasis, but it is not based on some thought-out 
strategy. Is that--would that be inaccurate? Correct, or 
correct?
    But please feel free to comment, disagree, whatever.
    Ms. Glaser. Okay, I am happy to--Mr. Congressman, I think 
that your critique perhaps, from my perspective, is a bit 
harsh. There was no initial strategy document that was guiding 
the pivot. I think that it evolved piecemeal over a period of 
time. I think we have seen some important diplomatic, economic, 
and military aspects of it, but they haven't yet come together, 
from my perspective, in a coherent strategy----
    Mr. Rohrabacher. All right, so there is no strategy? It is 
not a strategy.
    Ms. Glaser. Okay.
    Mr. Rohrabacher. It is something--it is piecemeal. It is 
going by time.
    Let me--to let you know, I flew over the Spratly Islands 
about 10 years ago, after being kept from doing this. As a 
member of the Foreign Affairs Committee, our government, 
meaning our State Department, felt compelled to prevent me from 
seeing what was going on in the Spratly Islands. And I 
eventually had to commandeer a plane from the Philippine air 
force to fly me over the Spratly Islands, all right?
    At that time, the Spratlys were--there were some Chinese 
naval vessels there, clearly warships. Have the Spratly Islands 
been fortified since those days when I flew over there? So, for 
the last 10 years, as piecemeal policy is being developed here 
in Washington, or a response, that they have been fortifying 
Spratly Islands? Am I inaccurate in that suggestion?
    Yeah, they are fortifying the Spratly Islands. So, the 
piecemeal message we have been giving them as to our strategy 
is that we are cowards and we are weak. Just don't confront us 
and you can get away with what you want. And now, we see China 
challenging us in a way that threatens our security and 
threatens the peace of the world, by putting Japan and our 
other allies on the spot. Surprise, surprise.
    Well, I would hope that the pivot becomes more than just a 
slogan, and that we really take advantage of maybe whatever 
time we have got left to work with our allies. Luckily, we have 
a new sign of strength in Japan. And we should all be grateful 
and praise President Abe, and give him all the backing we can, 
coupled with one thing: we are weaker than we were 10 years 
ago. We are weaker than when we walked into Iraq and wasted a 
trillion dollars and thousands of our lives, and demoralized 
the American people so we are not able to make those kind of 
foreign commitments again.
    So, you know what we have to do? We have to make sure 
Australia, we have to make sure Japan, Korea, and our other 
allies in that area know that we will support them in their 
efforts to confront this aggression. And that is the--that 
should be the strategy and the formula. Maybe you would like to 
comment on that strategy.
    Anybody?
    I guess what I am saying is, maybe we should agree with Abe 
that he should expand his military forces, and thus, we don't 
necessarily have to send another two aircraft carrier battle 
groups there at a cost of, what, $50 billion to the American 
people, to offset this expansion of China into that region. 
Does that make sense?
    Ms. Glaser. I--we are----
    Mr. Rohrabacher. Go right ahead.
    Ms. Glaser. We are undertaking a project at CSIS. We are 
looking at--it is our president, John Hamre's idea--to look 
into how we could pursue more what he calls ``federated 
defense.'' Which is, encouraging greater collaboration among 
our allies----
    Mr. Rohrabacher. All right.
    Ms. Glaser [continuing]. Not only in the area of 
deployments, but also in exercises and procurement----
    Mr. Rohrabacher. Okay.
    Ms. Glaser [continuing]. So we can try and limit 
duplication----
    Mr. Rohrabacher. I have got 20 seconds left.
    Ms. Glaser [continuing]. Get force multipliers----
    Mr. Rohrabacher. It is a great idea what you said. How 
about the idea of creating an OSCE [Organization for Security 
and Co-operation in Europe], that is now focused on Europe, of 
course--but an OSCE that would be Asia-focused, and having just 
an organization of democratic states like that for Asia? Would 
that help give China a message that we are united behind 
democratic countries?
    Ms. Glaser. In principle, it is a good idea, but in a short 
answer, what I would say is, there is no country in the region 
that wants to be compelled to choose between the United States 
and China. And being part of that kind of organization would 
appeal to some countries, but for some that are geographically 
very close to China, very dependent on China economically, 
would not want to be put in that position.
    Mr. Rohrabacher. Well, let's just make sure that Mr. Abe 
and our Korean friends and our friends down in Australia, and 
our other close friends who do want to be with us know that we 
are encouraging them to stand up to this challenge, because 
they will be the ones who have to stand up. Our government 
seems to be pivoting around the world, and trying to take in 
the information and develop some strategy for the future.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time is expired.
    The gentleman from the Commonwealth of Virginia, Mr. 
Connolly, is recognized for 5 minutes.
    Mr. Connolly. I thank the chair. And, Mr. Chairman, I have 
an opening statement I would ask to be entered into the record.
    [The statement of Mr. Connolly can be found in the Appendix 
on page 42.]
    Mr. Chabot. Without objection, so ordered.
    Mr. Connolly. I thank the chair, and I thank the panel for 
being here.
    And I am always--I always enjoy the thoughts of my friend 
from California. And I have so many reactions to so much of 
what he had to say.
    I would note, as a student of history, there are others in 
Asia who have made the miscalculation of mistaking American 
resolve, and with tragic consequences for them and for us.
    But I would hope that others in the region today would not 
make a similar miscalculation, because some think we are weak. 
Weakness is in the eye of the beholder. I certainly share my 
colleague's views about the folly of Iraq, and the terrible 
price the United States has paid, and the diversion it 
represents.
    I am not sure, maybe my friend would be happier if we had a 
white paper on the pivot, and then we could call it a strategy. 
I happen to think the pivot is an enlightened decision by the 
United States, and is going to involve lots of elements.
    We are seeing one of them as we speak, the TPP, the Trans-
Pacific Partnership, which is going to be a very important 
economic anchor and political anchor. And it is very much in 
the face of China.
    My friend lionizes the prime minister, now president of 
Japan, Mr. Abe. It might be useful if Mr. Abe wishes to really 
exercise moral, as well as political, leadership in the region, 
if he were to acknowledge the sins of Japan, especially with 
respect to Korea, from the recent unpleasantness known as World 
War II. That might be a useful start if Mr. Abe wishes to 
exercise regional leadership.
    Let me ask you about the situation. I mean, China seems to 
have gone out of its way to provoke the Philippines, South 
Korea, Taiwan, Vietnam, Japan, and the United States, the 
Spratly Islands, as Mr. Rohrabacher talks about, the Senkaku or 
Diaoyu Islands.
    What is in the thinking of Japan--I mean, of China? Is it 
deliberately being provocative, or is it unmindful or uncaring 
of the consequences of such provocation? Your sense, Mr. 
Dutton. And we can go down the panel.
    Mr. Dutton. Thank you very much. Yes, I believe it is 
deliberate provocation for the purpose of achieving at least 
two sets of objectives. One set of objectives is domestic, it 
is internal.
    This type of friction, I think, is managed friction. It is 
creating it, but managing it, avoiding escalation, in order to 
ensure domestic stability in the sense that the Chinese 
Communist Party remains the center of governance within the----
    Mr. Connolly. You think it is more internal than anything 
else?
    Mr. Dutton. It is tough to assess. But it is a very 
important part.
    Mr. Connolly. I am going to come back and ask you about 
miscalculation. But I want to give Ms. Glaser and Mr. Smith a 
quick chance to comment.
    Ms. Glaser. Very quickly, I think there is an inextricable 
linkage between the domestic situation and the external 
situation for China. I think that the Communist Party is 
seeking to rejuvenate itself. Its legitimacy is very much 
wrapped up with not making any concessions on territorial and 
sovereignty in these maritime disputes.
    So I think that the Chinese are going to continue to adhere 
to this. They don't want to make concessions on these. They 
also want good relations with their neighbors. Up until now, 
they haven't been compelled to make a choice.
    Mr. Connolly. Mr. Smith.
    Mr. Smith. I would like to add India to that long list of 
countries that China has been provoking in recent years. In 
fact, India may have been one of the first.
    I think this behavior really began in 2009. And actually, 
in doing some research for a book on China-India relations, one 
of the things that frequently came up was in assessing China's 
behavior in recent years, don't underestimate the effect that 
the global financial crisis had on the thinking of their 
leadership; that really, America's--this was the beginning of 
America's decline, and the time had come for China's rise.
    They had weathered the storm much better than we had, or in 
fact, anyone else around the world. And if the time to assert 
China's--reassert China's authority in Asia, it was now.
    Mr. Connolly. Okay. Final point, though, what worries me 
about, as a student of history, is miscalculation. Okay. So 
that is your thinking, and that is what you are doing. And it 
has a lot of internal domestic pressure, which, not unique to 
China, not unique at this moment in history.
    But what can happen is a miscalculation. Because the fact 
externally is this is a provocative set of behavior that could 
provoke something, not planned, not intended, nonetheless real.
    Mr. Dutton, Ms. Glaser, Mr. Smith, do you want to quickly 
comment?
    Mr. Dutton. Yes, it is absolutely----
    Mr. Connolly. The chair will allow them to finish 
answering. My questions are over.
    Mr. Chabot. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Dutton. It is absolutely the case that it is a 
dangerous game. And what we can see clearly is that it has 
provoked American attention and American concern, and the same 
thing throughout the region. And I think it has achieved what 
China sought to prevent, which is balancing behavior against 
China directly. It is unfortunate, but I think that is what it 
has achieved.
    Ms. Glaser. I would just say that the Chinese are 
insufficiently worried about miscalculation and accident, and 
quite confident, frankly, that they could control escalation.
    If they were worried about this, they would not have 
announced that new ADIZ, which the potential for their aircraft 
flying over these disputed islands in the East China Sea, then 
being intercepted by Japanese fighters, and responded to by 
Chinese fighters scrambling.
    This carries, I think, great inherent danger. And I don't 
think the Chinese appreciate this significantly.
    Mr. Smith. I would agree, and I understand why China's 
policy in the region seems so counterintuitive, because I think 
it has done their image great harm. And on the flipside of 
that, we must never forget sort of the silver lining, which is 
that countries in the region who maybe 10 years ago were tiring 
of American power and authority, or looking for alternatives, 
are now welcoming the U.S. back with, you know, great 
enthusiasm.
    So as we confront this challenge, we must also look at it 
as an opportunity.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from California, Mr. Sherman, is recognized for 5 minutes.
    Mr. Sherman. Thank you. First, I am just trying to 
understand the law of the sea, and the conventional law of the 
sea. It is my understanding that if there is a tiny speck just 
barely above water, the smallest possible island, that whoever 
owns that island controls 125,000 nautical miles, 200 miles in 
every direction, of that speck, with regard to economic 
exploitations. Is that true?
    Mr. Dutton. I am sorry, sir. No, it is not true. A small 
island that is uninhabitable, or that can produce no economic 
activity of its own, gets no more than 12 nautical miles around 
it. And that is only if it is above water at high tide.
    Mr. Sherman. Does an artificial island get anything?
    Mr. Dutton. It does not.
    Mr. Sherman. And if there is like one family that lives on 
the island, does it then get the 200 miles?
    Mr. Dutton. Well, we are hoping that the Philippine 
arbitration can help us understand what the law says about 
these questions. It is one of the most important aspects of 
China's--or of the Philippines, a desire to get an 
international law perspective on these questions.
    Mr. Sherman. Okay. And if the--if it is inhabited, I assume 
that an island that was previously uninhabited, that gains 
habitation, counts as a habitable island. Is that accurate?
    Mr. Dutton. Well, it is a little difficult to know, and 
here is why: Because what does habitation mean, has so far not 
been answered. And if you have--you just put soldiers down on 
an island, but you have to truck in water, or fly in water, is 
that habitation? No, probably not.
    So the answer is not yet definitive in international law, 
but it is pretty clear that it has to be self-sustaining 
habitation. And that was meant, was a permanent----
    Mr. Sherman. Well, of course, a vacation--there are many 
vacation islands with thriving economies that exist only 
because tourists spend money to be there.
    Mr. Dutton. Well, if they are self-sustaining, and from 
what the resources of the island can produce, then they 
probably would get----
    Mr. Sherman. You put a rich family on an island, you have a 
tourist resort.
    Now--but there is no--even the smallest inhabited island 
does get the 125,000 square miles, nautical miles, it can be a 
small island with--as long as it is inhabited; is that correct?
    Mr. Dutton. As long as it is inhabited, it gets 200-mile 
exclusive economic zone. Yes, I haven't done the math.
    Mr. Sherman. Wow. Now, Japan would certainly--so the 
islands that are in dispute, for the most part, are viewed as 
uninhabited, and control only 12 miles?
    Mr. Dutton. Yes. In the Spratlys, there are about 45 
islands that are the major groups that are the larger of the 
islands, 45 of which are inhabited, technically inhabited. 
Whether they are legally inhabited is a different question, we 
don't know----
    Mr. Sherman. Got you.
    Mr. Dutton. Technically inhabited by----
    Mr. Sherman. So we have to both determine the ownership of 
the islands and whether they are inhabited.
    Mr. Dutton. That is right.
    Mr. Sherman. And these islands have been of scant economic 
value up until now. We are told that we should be spending 
trillions of dollars reorienting our entire military 
establishment to defend the economic rights of countries that 
spend, in the case of Japan, only 1 percent of its GDP.
    This is a kind of rhetorical question, but if there is oil 
on any of these islands, the American taxpayer doesn't get any 
of it, right?
    Mr. Dutton. Sir, the answer to that question is there are 
three problems. We are only being asked to deal with one of 
them; not the sovereignty question, not even the jurisdictional 
question over how do you draw resource boundaries, but control.
    Whether the coastal state has, China, has the right to 
limit freedom of navigation for military purposes or not, that 
is the key American interest.
    Mr. Sherman. I understand. Well, the reason they are trying 
to do it, presumably is the resources. And of course, Japan 
also has the same kind of notification zone that China has been 
criticized for creating. My time is almost expired. I will ask 
any witness with--Ms. Glaser, do you have----
    Ms. Glaser. With all due respect, sir, I do think that your 
perspective is a narrow interpretation of American interest. 
No, we may not get directly all the fish, or the oil----
    Mr. Sherman. We have a tremendous interest in everything in 
the world. And we could have a $5 trillion military, and it 
wouldn't be sufficient to deal with every occasion where people 
have sat in front of me and said, ``We have vital interests. 
And the interests of our allies are at stake. And we must take 
action.''
    Ms. Glaser. I believe that our interest----
    Mr. Sherman. Sure. If--you know, if we could just phone 
this one in, fine. But our entire military is looking at this 
as a chance to face a noble foe, a chance to be in the kind of 
conflict that is far less frustrating than fighting 
insurgencies and fighting asymmetrical warfare, all for some 
islands where our interests may be just as vital as they are in 
every other square inch of this planet. And there is no 
shortage of interests.
    Mr. Chabot. The gentleman's time is expired.
    Unless one of the witnesses wants to respond briefly. Ms. 
Glaser.
    Ms. Glaser. I would just like to briefly comment. There may 
be some individuals in the military that hold those views. 
Those that I speak with and people who are in higher levels in 
this Administration and even prior Administrations I think 
would argue differently. That our goal is not to encourage 
China to be an enemy or to organize our military against China. 
That we very much want to see China emerge peacefully and 
become part of this rules-based system.
    I don't think about our presence in the Asia-Pacific is 
simply about protecting tiny specks of rocks or other things in 
the waters. I think it goes way beyond that. It is freedom of 
navigation. It is maintaining the access and freedom to 
maneuver within the area, without which we will have no 
credibility as a presence and a provider of a balancing force 
in the region to help protect not only our own interests, but 
those of our allies and partners.
    Mr. Chabot. Mr. Dutton.
    Mr. Dutton. Yes, quite briefly, I would like to say the 
pivotal rebalance is not about looking for a glorious enemy or 
some noble foe. It is about a return to America's fundamental 
security and strategic interests.
    Mr. Sherman. I would simply say that a nation with our 
economic problems has fundamental interests at home. And that 
the fundamental interests that you are talking about are no 
more significant than those in the eastern Mediterranean, those 
in the Caribbean, hundreds of other conflicts most of them not 
in the headlines today.
    And if--again, could we limit our military to merely a $5 
trillion budget if we dealt with every set of witnesses that 
told us of a critical national security vital interest 
position, critical to our standing in the world. I would say 
that Japan, the real beneficiary of some of the actions you 
suggest, limits its military to 1 percent of GDP.
    I yield back.
    Mr. Chabot. The gentleman's time has expired.
    The chair would ask unanimous consent that all Members have 
5 days to supplement any statements or submit any questions. I 
would like to recognize Chairman Forbes, for the purpose of 
making a statement and recognize the panel.
    Mr. Forbes. Mr. Chairman, first of all, thank you for 
allowing us to do this.
    And to each of you, we recognize the time that you spent to 
prepare to be here today. This is a very important hearing, but 
equally it is a very important record for us to create. So, our 
subcommittee always likes to give our witnesses an opportunity, 
if you need to, to either complete or make sure your responses 
were complete and accurate. If there is anything that you feel 
briefly you need to put on the record, to supplement or clarify 
anything that you have said, we would like to give you that 
opportunity now.
    And if you don't do it now, please feel free to submit it 
to us later. We will start in the order that you spoke. Mr. 
Dutton, anything else that you have for us for the record that 
you would like to offer?
    Mr. Dutton. Yes, sir. I have four points. I will be as 
quick as I can. The first is I think it is important to note 
that China has not been as dangerously, quote, ``aggressive'' 
as (A) they could be, or (B) they have been at different times 
in the past. China has been through--the current, the People's 
Republic of China, has been through four phases in their 
approaches to the island disputes and the water disputes in 
East Asia. The first phase from 1949 to 1974 was they ignored 
them, essentially. From 1974 to 1988 or so, they did in fact 
use military power to change the circumstances on the ground a 
number of times during that timeframe.
    From roughly 1990 to the mid-2000s, China went on a charm 
offensive trying to buy the goodwill of the regional states 
regarding these disputes. And then finally, most recently, this 
nonmilitarized coercion that we are seeing now. And the problem 
with--that we are having with is that we have too few tools to 
grapple with this particular strategy. We could manage the 
previous ones. We have too few tools to manage this one.
    The second point that I would like to make is in talking 
about whether China will be weaker or stronger in the future, 
it is almost the wrong question. We have 1.3 billion globally 
connected, economically connected people now that a generation 
ago were not. That economic connectivity has a gravitational 
pull of its own, which means that China's economy will be a 
powerful force of some kind in the future.
    Whatever the GDP futures look like, I don't know. My 
crystal ball is cloudy. But I will say that China will have 
substantial economic and political power--substantial enough to 
choose to make military power in the future if that is where 
they choose to balance how to spend their money. Whether it is 
on social spending or military spending, we don't know. But 
they will have plenty of spending when you have 1.3 billion 
globally connected, economically connected people.
    The third point I want to make is to reiterate that freedom 
of navigation and the essence of American security around the 
world is based on American ability to navigate around the world 
through--in and through the commons, and that requires us to 
support the laws and norms of freedom of navigation and to 
exercise leadership over those norms. I believe we need to 
accede to the United Nations Convention on the Law of the Sea. 
The world is crying out for American leadership of some kind. 
And in order for us to exercise that leadership, getting inside 
the system and running the system from inside, rather than 
standing outside it is how we are going to best get the support 
and the coalescence of power that we need in order to confront 
what China is pushing at us with--on this point.
    And then the last point I wanted to make, it is also 
related to freedom of navigation. It is also related to the 
fundamental strategic roots of American security. And that is 
our ability to ensure our security presence in Europe and the 
Middle East and in Asia. Those three regions are--and our 
ability to access them for security purposes is the foundation 
of American security. It is possible for America to re-
articulate a fundamentally different security strategy and that 
may be something we would want to do in the future. But it is a 
world in which our options and our opportunities become 
significantly constrained.
    Mr. Forbes. Thank you.
    Ms. Glaser, very briefly, any other comments that you----
    Ms. Glaser. Yes, thank you very much. I will just make two 
points.
    One is that there are these ongoing worries and concerns 
about U.S. staying power in the region. This is not going to be 
attainable, this reassurance, probably over any period of time. 
It is just an effort that the United States has to keep up at 
every day, every week, every month, every year.
    We have to give these countries in the region confidence 
that the United States is going to continue to be there. It is 
not enough just to say we are a resident power. But we really 
have to be involved in the life of the region.
    And countries are so welcoming of the United States. So it 
is a great opportunity, but we really have to continue to do 
this. If we are not sufficiently providing this reassurance, I 
really do think that there is a risk that some of the smaller 
countries in the region are going to feel that they have to 
accommodate to terms that are being dictated to them, in part 
and mostly by China, but that they prefer not to accede to.
    The second point that I would like to make is that one of 
the fundamental sources of instability in the region and 
particularly in the South China Sea is the nine-dash line and 
the ambiguity of the nine-dash line.
    So, it originated 1947. It was an 11-dash line. You know, 
we all know this. But today, what does it mean? The Chinese 
themselves have these internal debates about what it means.
    And we all need to compel China to tell us and the world, 
and particularly its neighbors, what does it mean? Is it 
China's EEZ? Is it a national boundary? Does China simply claim 
the land features and then the waters that those legally 
generate under UNCLOS?
    Clarification of this by China I think would go a long way 
towards beginning to create the kind of circumstances in which 
countries can begin to collaborate, maybe join economic 
exploitation, fisheries agreements, and things of that nature 
that might diffuse some of the tensions.
    Thank you.
    Mr. Forbes. Thank you.
    And Mr. Smith, last brief word on your account?
    Mr. Smith. Yes, just a brief remark for Congressman Sherman 
who I think in an era of budget constraints, this type of 
skepticism is actually very healthy. This is an issue where we 
all seem to be on the same page. So, having some critical 
thinking and really prodding us to think through this is most 
welcome.
    And I think--I am sure everyone who comes before you says 
that their issue and their region of the world is of utmost 
importance and is, you know, vital national security interest.
    I think in this case, you really can make a valid and 
rational case that China is unique--that it is the one country 
that is capable of posing a genuine conventional threat to the 
U.S. military in the 21st century.
    And in addition to that, is the one country that is really 
doing--is engaging in a lot of provocative behavior with its 
neighbors.
    And it is not just a territorial dispute issue with its 
neighbors--it is also attempting to restrict our freedom to 
operate in the Western Pacific. It is something that impinges 
directly on our national security interests and is not merely 
an issue for our allies.
    But thank you for voicing this concern.
    Mr. Forbes. Mr. Chairman, thank you, and I yield back.
    Mr. Chabot. Thank you. The gentleman yields back.
    I would like to thank the chair and the ranking members 
that were here earlier for their cooperation in making this 
very important hearing possible, and I want to especially thank 
our distinguished panel this afternoon for their very helpful 
testimony.
    If there is no further business to come before the 
committees, we are adjourned. Thank you.
    [Whereupon, at 3:59 p.m., the subcommittees were 
adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 14, 2014

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 14, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6962.001
    
    [GRAPHIC] [TIFF OMITTED] T6962.002
    
    [GRAPHIC] [TIFF OMITTED] T6962.003
    
    [GRAPHIC] [TIFF OMITTED] T6962.004
    
    [GRAPHIC] [TIFF OMITTED] T6962.005
    
    [GRAPHIC] [TIFF OMITTED] T6962.008
    
    [GRAPHIC] [TIFF OMITTED] T6962.009
    
    [GRAPHIC] [TIFF OMITTED] T6962.010
    
    [GRAPHIC] [TIFF OMITTED] T6962.011
    
    [GRAPHIC] [TIFF OMITTED] T6962.012
    
    [GRAPHIC] [TIFF OMITTED] T6962.013
    
    [GRAPHIC] [TIFF OMITTED] T6962.014
    
    [GRAPHIC] [TIFF OMITTED] T6962.015
    
    [GRAPHIC] [TIFF OMITTED] T6962.016
    
    [GRAPHIC] [TIFF OMITTED] T6962.017
    
    [GRAPHIC] [TIFF OMITTED] T6962.018
    
    [GRAPHIC] [TIFF OMITTED] T6962.019
    
    [GRAPHIC] [TIFF OMITTED] T6962.020
    
    [GRAPHIC] [TIFF OMITTED] T6962.021
    
    [GRAPHIC] [TIFF OMITTED] T6962.022
    
    [GRAPHIC] [TIFF OMITTED] T6962.023
    
    [GRAPHIC] [TIFF OMITTED] T6962.024
    
    [GRAPHIC] [TIFF OMITTED] T6962.025
    
    [GRAPHIC] [TIFF OMITTED] T6962.026
    
    [GRAPHIC] [TIFF OMITTED] T6962.027
    
    [GRAPHIC] [TIFF OMITTED] T6962.028
    
    [GRAPHIC] [TIFF OMITTED] T6962.029
    
    [GRAPHIC] [TIFF OMITTED] T6962.030
    
    [GRAPHIC] [TIFF OMITTED] T6962.031
    
    [GRAPHIC] [TIFF OMITTED] T6962.032
    
    [GRAPHIC] [TIFF OMITTED] T6962.033
    
    [GRAPHIC] [TIFF OMITTED] T6962.034
    
    [GRAPHIC] [TIFF OMITTED] T6962.035
    
    [GRAPHIC] [TIFF OMITTED] T6962.036
    
    [GRAPHIC] [TIFF OMITTED] T6962.037
    
    [GRAPHIC] [TIFF OMITTED] T6962.038
    
    [GRAPHIC] [TIFF OMITTED] T6962.039
    
    [GRAPHIC] [TIFF OMITTED] T6962.040
    
    [GRAPHIC] [TIFF OMITTED] T6962.041
    
    [GRAPHIC] [TIFF OMITTED] T6962.042
    
    [GRAPHIC] [TIFF OMITTED] T6962.043
    
    [GRAPHIC] [TIFF OMITTED] T6962.044
    
    [GRAPHIC] [TIFF OMITTED] T6962.045
    
    [GRAPHIC] [TIFF OMITTED] T6962.046
    
    [GRAPHIC] [TIFF OMITTED] T6962.047
    
    [GRAPHIC] [TIFF OMITTED] T6962.048
    
    [GRAPHIC] [TIFF OMITTED] T6962.049
    
    [GRAPHIC] [TIFF OMITTED] T6962.050
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 14, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6962.006
    
    [GRAPHIC] [TIFF OMITTED] T6962.007
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 14, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. It was reported that a Chinese naval vessel nearly 
collided with the USS Cowpens after the Chinese vessel moved to block 
passage of the USS Cowpens. I understand that the USS Cowpens was 
operating in international waters. There have been other incursions by 
the Chinese military to impede U.S. military operations in other areas 
including the USNS Impeccable in 2009 and the interdiction of an EP-3 
aircraft in 2001. How effective is China in coordinating actions of 
local military commanders? In your estimation, are these incidents 
coordinated by the central government or are they actions by rogue 
military agents?
    Mr. Dutton. [The information was not available at the time of 
printing.]
    Mr. Forbes. As to the establishment of the Air Defense 
Identification Zone by the Chinese in the East China Sea, it appears 
that our response was not well coordinated with our partners. I 
understand that FAA included a Notice to Airman to our commercial 
airline industry that required them to abide by the Chinese notice. I 
also understand that the Japanese and the South Korean initially 
blocked implementation of this notice and the Japanese remain opposed 
to using the notice. While I applaud the PACOM's decision to send a B-
52 flight without notice into the Air Defense Identification Zone 
thereby establishing our intent to follow international law, I am 
concerned that the executive branch did not effectively coordinate an 
international response with our partners and allies for our commercial 
sector. From your perspective, can you elaborate what you believe would 
have been an appropriate response to this incursion and did the U.S. 
effectively coordinate a response with our partners and allies?
    Mr. Dutton. [The information was not available at the time of 
printing.]
    Mr. Forbes. The Subcommittee on Seapower and Projection Forces had 
a hearing in December to discuss Chinese trends and potential impacts 
of a reduction in GDP growth. I was surprised at the near unanimity in 
thought among those witnesses as to their anticipated growth 
assessments for China. If China GDP continues to decline, can you 
project how their economy will impact Chinese military decisions? Would 
you anticipate a reduction in GDP could possibly embolden Chinese 
military activities to more vigorously exert territorial claims in the 
near to mid-term?
    Mr. Dutton. [The information was not available at the time of 
printing.]
    Mr. Forbes. It was reported that a Chinese naval vessel nearly 
collided with the USS Cowpens after the Chinese vessel moved to block 
passage of the USS Cowpens. I understand that the USS Cowpens was 
operating in international waters. There have been other incursions by 
the Chinese military to impede U.S. military operations in other areas 
including the USNS Impeccable in 2009 and the interdiction of an EP-3 
aircraft in 2001. How effective is China in coordinating actions of 
local military commanders? In your estimation, are these incidents 
coordinated by the central government or are they actions by rogue 
military agents?
    Ms. Glaser. Regarding the Cowpens incident specifically, the PLAN 
undoubtedly anticipated that U.S. surveillance vessels would be 
monitoring this exercise, which was the first major exercise conducted 
by the Liaoning carrier escorted by destroyers and frigates. It is 
likely that the naval ships involved in the exercise were instructed as 
to the rules of engagement with U.S. surveillance vessels. They may not 
have anticipated that the Cowpens would sail as close to the carrier as 
it apparently did. In a January 23 News briefing, U.S. Pacific Command 
Commander Adm. Samuel J. Locklear III stated that the Chinese believed 
that their carrier operations were properly notified, but the Cowpens 
was not aware of any notification. It is my understanding that China's 
Maritime Safety Administration issued on December 6 three no-sail ban 
warnings for the areas where PLAN training was taking place from 
December 3, 2013 to January 3, 2014. The incident with the Cowpens 
occurred on December 5, so it seems that the late issuance of the no-
sail warning played an important role in this incident.
    To your larger question, coordination between Chinese civilian and 
military actors, and between law enforcement ships and navy ships 
(white hulls and grey hulls), has improved. Xi Jiping was put in charge 
of a task force to manage maritime issues even before he became general 
secretary of the Chinese Communist Party, and he has taken steps to 
strengthen coordination. Nevertheless, it is plausible that there could 
be instances in which individual ship commanders or even pilots behave 
more aggressively than the central government has authorized. The PLA 
is not a rogue actor, however; it is very much under the control of the 
CCP.
    Mr. Forbes. As to the establishment of the Air Defense 
Identification Zone by the Chinese in the East China Sea, it appears 
that our response was not well coordinated with our partners. I 
understand that FAA included a Notice to Airman to our commercial 
airline industry that required them to abide by the Chinese notice. I 
also understand that the Japanese and the South Korean initially 
blocked implementation of this notice and the Japanese remain opposed 
to using the notice. While I applaud the PACOM's decision to send a B-
52 flight without notice into the Air Defense Identification Zone 
thereby establishing our intent to follow international law, I am 
concerned that the executive branch did not effectively coordinate an 
international response with our partners and allies for our commercial 
sector. From your perspective, can you elaborate what you believe would 
have been an appropriate response to this incursion and did the U.S. 
effectively coordinate a response with our partners and allies?
    Ms. Glaser. It is my understanding that the FAA reiterated 
longstanding practice and policy that, for the safety and security of 
passengers, U.S. civilian aircraft flying internationally operate in 
accordance with NOTAMs issued by foreign countries. I do not believe 
that there was an instruction issued to specifically abide by China's 
notice. However, since this reiteration by the FAA of U.S. policy was 
made after China issued its new ADIZ regulations, it appears that the 
FAA was telling U.S. airlines to follow Chinese regulations. The 
Japanese opposed complying with China's notice.
    Perhaps even of greater significance, there was a gap between Japan 
and the U.S. in their official responses to Beijing after the 
announcement of the ADIZ. Tokyo insisted that China rescind the ADIZ; 
the U.S. only demanded that China not implement it and said it would 
not recognize the ADIZ. It is clear from both these instances that the 
U.S. and Japan did not adequately coordinate their responses. Given the 
fact that there were ample signals in the Chinese media and from other 
sources that Beijing was planning to announce an ADIZ, this is 
disappointing and inexcusable.
    I believe that ensuring the safety of American citizens flying 
abroad should be the number one priority of the U.S. government, so I 
do not oppose the U.S. decision to not instruct U.S. airlines to ignore 
China's ADIZ regulations. I do think, however, that the U.S. should 
have coordinated more effectively with Japan and minimized the gap 
between the allies, which works to China's advantage. Tokyo and 
Washington should work harder to anticipate Chinese actions and 
coordinate responses. I understand that there are plans to conduct a 
series of US-Japan tabletop exercises to enhance preparedness for such 
contingencies and I applaud this effort.
    Mr. Forbes. The Subcommittee on Seapower and Projection Forces had 
a hearing in December to discuss Chinese trends and potential impacts 
of a reduction in GDP growth. I was surprised at the near unanimity in 
thought among those witnesses as to their anticipated growth 
assessments for China. If China GDP continues to decline, can you 
project how their economy will impact Chinese military decisions? Would 
you anticipate a reduction in GDP could possibly embolden Chinese 
military activities to more vigorously exert territorial claims in the 
near to mid-term?
    Ms. Glaser. China has entered an era of slower growth after three 
decades of double-digit annual economic expansion. Mainstream 
economists predict that China's annual growth will slow to between 6 
and 7 per cent over the next decade. If this forecast is accurate, 
China will continue to be a formidable economic power and its economic 
influence on the region, indeed on the world, will be enormous. China's 
military expenditures will likely remain substantial, and will continue 
to exceed the military budgets of most of China's neighbors.
    Today, China is the number one trading partner of 124 countries in 
the world. These include Japan, Korea, Australia and every ASEAN 
country with the exception of the Philippines. Beijing will therefore 
be able to use economic tools to influence the political decisions of 
its neighbors. China is likely to rely on diplomacy and economic tools, 
rather than military means to enforce its claims. The Chinese know that 
any use of force to secure their claims would be counterproductive in 
that it would make the regional states more wary of Chinese intentions 
and push them into closer alignment with the United States. In the past 
few years, there has been a pattern of Chinese coercion and 
assertiveness, but not Chinese aggression. I do not expect that in the 
near to mid-term the Chinese will shift to the blatant employment of 
military force to exert control over their claims.
    China's GDP is only one of several variables that will affect 
Chinese decision making regarding maritime disputes. Chinese 
assessments of U.S. economic strength and commitment to the Asia-
Pacifica region will also be important factors. If the U.S. is strong 
and deeply involved in the region, there is a reduced potential for 
miscalculation by China.
    Mr. Forbes. It was reported that a Chinese naval vessel nearly 
collided with the USS Cowpens after the Chinese vessel moved to block 
passage of the USS Cowpens. I understand that the USS Cowpens was 
operating in international waters. There have been other incursions by 
the Chinese military to impede U.S. military operations in other areas 
including the USNS Impeccable in 2009 and the interdiction of an EP-3 
aircraft in 2001. How effective is China in coordinating actions of 
local military commanders? In your estimation, are these incidents 
coordinated by the central government or are they actions by rogue 
military agents?
    Mr. Smith. This question has been the subject of fierce speculation 
outside of China--to what degree are provocative actions by Chinese 
forces the result of initiatives taken by local commanders, and to what 
degree are they orchestrated by China's senior political leadership? I 
frequently encountered this question when conducting research for my 
book on China-India relations, as it related to border incursions 
across the Line of Actual Control by Chinese border patrols. In this 
case, and in the case of our multiple maritime incidences at sea, a 
convincing body of circumstantial evidence suggests the behavior is 
encouraged and condoned by the senior leadership. Were these limited to 
a handful of incidents the possibility of rogue behavior by a local 
commander would be more credible. Unfortunately, U.S. Navy ships have 
been harassed on nearly one dozen occasions, as documented in my 
testimony, and in the case of Chinese incursions across the China-India 
border, happen several hundred times a year. We are unaware of local 
commanders facing any consequences for this provocative behavior. The 
most insightful China watchers I am in contact with are in fairly 
uniform agreement that the behavior is encouraged and condoned by the 
senior leadership.
    Mr. Forbes. As to the establishment of the Air Defense 
Identification Zone by the Chinese in the East China Sea, it appears 
that our response was not well coordinated with our partners. I 
understand that FAA included a Notice to Airman to our commercial 
airline industry that required them to abide by the Chinese notice. I 
also understand that the Japanese and the South Korean initially 
blocked implementation of this notice and the Japanese remain opposed 
to using the notice. While I applaud the PACOM's decision to send a B-
52 flight without notice into the Air Defense Identification Zone 
thereby establishing our intent to follow international law, I am 
concerned that the executive branch did not effectively coordinate an 
international response with our partners and allies for our commercial 
sector. From your perspective, can you elaborate what you believe would 
have been an appropriate response to this incursion and did the U.S. 
effectively coordinate a response with our partners and allies?
    Mr. Smith. As you rightly point out, our policy regarding the 
protocols for civilian airliners operating in China's ADIZ was both 
ambiguous and poorly coordinated with U.S. allies like Japan. In many 
respects, the episode boiled down to a question of semantics. The Obama 
administration was able to claim that, like Japan, it did not 
``require'' civilian carriers to comply with China's ADIZ regulations. 
Instead, it merely ``advised'' them to do so. According to the State 
Department: ``The U.S. government generally expects that U.S. carriers 
operating internationally will operate consistent with NOTAMs (Notices 
to Airmen) issued by foreign countries.'' An FAA spokesman also said 
they were ``advising for safety reasons that [U.S. civilian carriers] 
comply with notices to airmen, which FAA always advises.'' While 
technically not a demand, in practice the policy was perceived as very 
much at odds with Japan's. This created the impression of distance 
between the two treaty allies and caused Tokyo a great deal of 
discomfort in the process. Our poor coordination with the Japanese 
government was evident in Japanese Prime Minister Shinzo Abe's response 
to the announcement: ``We have confirmed through diplomatic channels 
that the U.S. government didn't request commercial carriers to submit 
flight plans.'' This confirms the suspicion that Washington only 
consulted with Japan after the fact.
    Mr. Forbes. The Subcommittee on Seapower and Projection Forces had 
a hearing in December to discuss Chinese trends and potential impacts 
of a reduction in GDP growth. I was surprised at the near unanimity in 
thought among those witnesses as to their anticipated growth 
assessments for China. If China GDP continues to decline, can you 
project how their economy will impact Chinese military decisions? Would 
you anticipate a reduction in GDP could possibly embolden Chinese 
military activities to more vigorously exert territorial claims in the 
near to mid-term?
    Mr. Smith. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
